<html>
<title> - EXOPLANET DISCOVERIES: HAVE WE FOUND OTHER EARTHS?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         EXOPLANET DISCOVERIES:

                       HAVE WE FOUND OTHER EARTHS?
=======================================================================


                             JOINT HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON SPACE &

                        SUBCOMMITTEE ON RESEARCH

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         THURSDAY, MAY 9, 2013

                               __________

                           Serial No. 113-27

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
81-191                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, Texas                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
MO BROOKS, Alabama                   DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                MARC VEASEY, Texas
BILL POSEY, Florida                  JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            FREDERICA S. WILSON, Florida
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
CHRIS STEWART, Utah
LAMAR S. SMITH, Texas
                                 ------                                

                        Subcommittee on Research

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   ZOE LOFGREN, California
STEVE STOCKMAN, Texas                AMI BERA, California
CYNTHIA LUMMIS, Wyoming              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                         Thursday, May 9, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Written statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9

Written statement by Representative Donna Edwards, Ranking 
  Minority Member, Subcommittee on Space, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10

Written statement by Representative Larry Bucshon, Chairman, 
  Subcommittee on Research, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11

Written statement by Representative Daniel Lipinski, Ranking 
  Minority Member, Subcommittee on Research, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12

Written statement by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13

                               Witnesses:

Dr. Laurance Doyle, Principal Investigator, Center for the Study 
  of Life in the Universe, SETI
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. John M. Grunsfeld, Associate Administrator, Science Mission 
  Directorate, NASA
    Oral Statement...............................................    21
    Written Statement............................................    24

Dr. James Ulvestad, Director, Division of Astronomical Sciences, 
  National Science Foundation
    Oral Statement...............................................    30
    Written Statement............................................    32

Discussion.......................................................    38

             Appendix I: Answers to Post-Hearing Questions

Dr. Laurance Doyle, Principal Investigator, Center for the Study 
  of Life in the Universe, SETI..................................    52

Dr. John M. Grunsfeld, Associate Administrator, Science Mission 
  Directorate, NASA..............................................    62

Dr. James Ulvestad, Director, Division of Astronomical Sciences, 
  National Science Foundation....................................    81

            Appendix II: Additional Material for the Record

NASA Exoplanet Missions Graphic submitted by Dr. John M. 
  Grunsfeld, Associate Administrator, Science Mission 
  Directorate, NASA..............................................    96


                         EXOPLANET DISCOVERIES:

                      HAVE WE FOUND OTHER EARTHS?

                              ----------                              


                         THURSDAY, MAY 9, 2013

                  House of Representatives,
                                    Subcommittee on Space &
                                   Subcommittee on Research
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee on Space] presiding.

[GRAPHIC] [TIFF OMITTED] 81191.001

[GRAPHIC] [TIFF OMITTED] 81191.002

[GRAPHIC] [TIFF OMITTED] 81191.003

[GRAPHIC] [TIFF OMITTED] 81191.004

[GRAPHIC] [TIFF OMITTED] 81191.005

[GRAPHIC] [TIFF OMITTED] 81191.006


    Chairman Palazzo. This joint hearing of the Subcommittee on 
Space and the Subcommittee on Research will come to order.
    Good morning, and welcome to today's joint hearing titled 
``Exoplanet Discoveries: Have We Found Other Earths?'' In front 
of you are packets containing the written testimony, 
biographies and Truth in Testimony disclosures for today's 
witnesses.
    Before we get started, since this is a joint hearing 
involving two Subcommittees, I want to explain how we will 
operate procedurally so all Members understand how the 
question-and-answer period will be handled. As always, we will 
alternate between the majority and minority members. We will 
recognize those Members present at the gavel in order of 
seniority on the full Committee and those coming in after the 
gavel will be recognized in order of arrival, and because of 
today's vote schedule, everybody, both minority and majority 
Members, have decided we are going to submit our opening 
statements for the record, which will allow us to proceed 
directly to our witnesses' testimony.
    [The information follows:]
  Prepared Statement of Subcommittee on Space Chairman Steven Palazzo

    Good morning, and welcome to this hearing. I would like to thank 
our witnesses for being here today to testify about exoplanet research 
and to share information with us about the recent discoveries made by 
NASA's Kepler mission.
    I would also like to commend NASA and NSF for working to meet our 
Committee's testimony deadlines. I understand that their testimony was 
late because the Office of Management and Budget failed to manage their 
time and resources wisely. In this case, I do not want to hold NASA or 
NSF responsible for problems in other areas of the Administration.
    Today's hearing topic is an exciting one. As of May 2013, 
scientists had identified roughly 900 confirmed ``exoplanets''--planets 
beyond our solar system--and more than 2,700 planet candidates. Last 
month, NASA's Kepler mission announced that it had found three super-
Earth sized planets in the ``habitable zone'' of two stars in our 
galaxy. The ``habitable zone'' refers the region around stars where 
planets could support liquid water. This discovery has broad 
implications not only for the scientific community, but for all 
mankind. This research will provide us with a better understanding of 
the universe and inspire the next generation of scientists and 
engineers.
    NASA's Fiscal Year (FY) 2013 budget allocates roughly $41million 
for exoplanet research, while the FY 2014 budget request is $55 
million. This amount includes funding for the extension of the Kepler 
mission and NASA's partnership with the Keck Observatory used for all 
NASA astrophysics science programs.
    According to Dr. Laurance Doyle, one of our witnesses today, 
exoplanet research was not as popular when he entered the field 30 
years ago as it is today. Now there are at least several thousand 
astronomers and astrophysicists around the world applying the transit 
method, like the one used by the Kepler mission, to detect and study 
extra-solar planets. In addition to the Kepler mission, the agency is 
planning to use future missions to further exoplanet research, 
including the James Webb Space Telescope, the Wide-Field Infrared 
Survey Telescope, and the newly announced Transiting Exoplanet Survey 
Satellite (TESS), which is expected to study the nearest bright stars 
and potentially discover thousands of new planets.
    I look forward to hearing about NASA and NSF's plan for continuing 
exoplanet research using these unique capabilities. Additional 
discoveries will no doubt accompany the development of these 
capabilities, which will in turn inspire new astronomers and 
astrophysicists.
    I am also interested in understanding how the government can 
increase cooperation to further leverage our investments. The Astronomy 
and Astrophysics Advisory Committee's (AAAC) Exoplanet Task Force and 
the National Academies have issued recommendations and roadmaps to 
guide future investigations. As the Academies notes in their recent 
decadal survey, ``[t]he search for exoplanets is one of the most 
exciting subjects in all of astronomy.'' The report went on to 
recommend ``a program to explore the diversity and properties of 
planetary systems around other stars, and to prepare for the long-term 
goal of discovering and investigating nearby, habitable planets.''
    The AAAC's Exoplanet Task Force issued a report in 2008 that posed 
the following questions regarding exoplanets: Do Earth-like planets 
exist; are they common; and do they show signs of habitability or 
biosignatures? These are complex questions that the National Academies' 
decadal survey argues will ultimately require a dedicated space mission 
to answer. However, that same decadal survey went on to state that ``it 
is too early to determine what the design of that space mission should 
be, or even which planet-detection techniques should be employed. It is 
not even clear whether searches are best carried out at infrared, 
optical, or even ultraviolet wavelengths.''
    As we strive to do more with less, I hope we will get a better 
understanding of how exoplanet research should adapt to the fiscal 
realities we face today. Is the current portfolio of missions and 
research still the ideal path under constrained budgets? How can we 
build upon recent inspirational discoveries in the most efficient 
manner? These are key questions we must answer as we work to draft a 
NASA Authorization Bill and a Reauthorization of COMPETES Act.
              Prepared Statement of Subcommittee on Space
                 Ranking Minority Member Donna Edwards

    Good afternoon and welcome to our distinguished panel of witnesses.
    The news coming out of NASA a few weeks ago was both surprising yet 
not unexpected. NASA's Kepler space telescope had found Earth-sized and 
super-Earth sized planets. That was not unexpected as Kepler is doing a 
fantastic job at discerning these faint objects.
    What was tantalizing is that this particular detection included 
three super-Earth-size planets in the "habitable zone," the range of 
distance from a star where the surface temperature of an orbiting 
planet might be suitable for liquid water to exist.
    I say tantalizing because this finding means we are making progress 
in answering the fundamental questions of where do we come from and 
whether we are alone in the Universe. NASA and the National Science 
Foundation have exciting exoplanet research both underway and planned 
that will help us gain further insight into those questions.
    Unfortunately, as we will hear this morning, addressing those 
questions will take time and resources; two things that are hard to 
come by in this difficult budgetary environment.
    In particular, NASA is somewhat hamstrung in starting a new large 
mission in astrophysics until it is closer to launching the James Webb 
Space Telescope, currently slated for 2018. And NSF's ability to 
support a growing number of grant requests focused on exoplanet 
research is threatened by relatively flat funding and the need to 
maintain currently operating facilities.
    I hope that today's hearing will shed light on the exciting 
potential of NASA and NSF exoplanet activities as well as the 
challenges these agencies face in getting there.
     Prepared Statement of Subcommittee on Research and Technology
                         Chairman Larry Bucshon

    Since humanity first began looking to the heavens, we have been 
fascinated by the possibility that we may not be alone in the universe. 
We dreamt of worlds far away, but not unlike our own, long before the 
first exoplanet was discovered by researchers funded by the National 
Science Foundation in 1992. The National Science Foundation's Division 
of Astronomical Sciences has continued to play a crucial role in 
furthering these discoveries, providing funds to help build and operate 
ground-based telescopes used for exoplanet discovery and observation.
    As the number of confirmed and cataloged heavenly bodies has 
swelled in the past twenty one years, we have sought to learn more 
about the conditions on these planets: the temperatures, the 
atmospheres, their core composition, how they orbit their respective 
stars, and ultimately, whether any are capable of sustaining life. We 
will hear from our witnesses today about ``habitable zones,'' the 
distance from a star that creates conditions hospitable to life. We 
believe that 50 out of the 2700 exoplanet candidates identified by 
NASA's Kepler mission exist in the ``goldilocks'' zone, neither too hot 
nor too cold, and potentially just the right temperature to allow life 
to flourish. Just last month, the Kepler mission released the details 
of three ``super-Earth'' sized planets in the habitable zone. I look 
forward to hearing from our witnesses regarding their suggestions for 
the next steps in studying these super-Earth sized planets in 
particular, as well as surveying for additional exoplanets.
    I would like to highlight the important contributions to life 
sciences research in space of two individuals affiliated with Purdue 
University back in my home state of Indiana. Dr. France Cordova, 
President Emerita of Purdue University is the Chairman of the Board of 
the Center for the Advancement of Science in Space, which manages the 
National Laboratory aboard the International Space Station. Dr. 
Marshall Porterfield, currently on leave from Purdue, is the Director 
of NASA's Space Life and Physical Sciences Research and Applications 
Division. At Purdue, he is a professor of agriculture and biological 
engineering, as well as co-director of the Physiological Sensing 
Facility, which fosters interdisciplinary engagement between 
bioscientists and engineers to drive sensor development and 
application. We are all very grateful for their service to our nation, 
and I am very pleased to know that their work will benefit not only the 
astronauts and scientists of today, but the students of Purdue 
University who will be studying these complex problems in the years to 
come.
     Prepared Statement of Subcommittee on Research and Technology
                Ranking Minority Member Daniel Lipinski

    Thank you Chairmen Palazzo and Bucshon for holding this hearing and 
thank you to the witnesses for being here. I will keep this brief.
    The search for habitable planets outside of our own solar system 
was identified as a scientific priority in the 2010 National Academies 
Decadal Survey of Astronomy and Astrophysics. And no wonder. This is 
exactly the type of scientific pursuit that expands our understanding 
of the world, or worlds, around us and grips the imagination of 
scientists and the public at large, even though we have no idea what we 
will find.
    Exoplanet research is also a good example of an area of science 
that receives support from more than one federal agency. In this case, 
NASA and NSF have overlapping science goals, but very different tools 
with which to pursue those goals. As a result, the data and findings 
generated by NASA's space-based instruments may map directly onto data 
and findings generated by NSF's ground-based instruments, permitting 
the kind of replication that drives scientific discovery forward. I 
could also note that the recent paper describing the new exoplanet that 
was found in a so-called habitable zone was co-authored by a researcher 
being funded by an NSF CAREER award, which funds early career 
researchers. I look forward to hearing more about the scientific 
opportunities made possible by current and future instruments at both 
agencies.
    The collaboration between NSF and NASA on astronomy and 
astrophysics research appears overall to be strong and productive. The 
Astronomy and Astrophysics Advisory Committee, which was established by 
Congress in the 2002 NSF Reauthorization Act to address structural 
problems in interagency collaboration that were a real concern 10 years 
ago, have been very positive in their assessments in more recent years.
    At the same time, both NASA and NSF have been under budgetary 
constraints that have hampered progress in astronomy and many other 
fields of science, even as the quantity and quality of proposals 
continues to increase. I'd like to hear from the agency representatives 
how you are dealing with these funding challenges for exoplanet 
research specifically and astronomy more generally, and any other 
challenges you may be facing.
    Prepared Statement of Committee on Science, Space and Technology
                        Chairman Lamar S. Smith

    Thank you Chairman Palazzo and Chairman Bucshon for holding this 
hearing. I also want to thank the witnesses for being here to share 
their expertise on this topic.
    Space exploration is an investment in our nation's future--often 
the distant future. It encourages innovation and improves Americans' 
quality of life. I don't know if space is the final frontier, but I 
believe it is the next frontier.
    The search for exoplanets and Earth-like planets is a relatively 
new but inspiring area of space exploration. Scientists are discovering 
new kinds of solar systems in our own galaxy that we never knew 
existed.
    The discovery of Earth-like planets will open up new opportunities 
for American astronomers and explorers. Some experts predict that many 
more planets will be detected soon. And some of these planets could 
even contain the first evidence of organic life outside of Earth.
    Imagine how the discovery of life outside our solar system would 
alter our priorities for space exploration and how we view our place in 
the universe.
    Today we will hear where we are in our search. And what comes next 
in our study of these newly discovered planets. The U.S. already has 
undertaken a number of initiatives.
    Cooperation between NASA's space-based telescopes, like the Kepler 
mission, and ground-based telescopes funded in part by the National 
Science Foundation (NSF), has enabled astronomers to expand their star 
gazing capabilities. Also, next year construction will begin on the new 
NSF funded Large Synoptic Survey Telescope in Chile.
    In addition to its many other capabilities, this telescope will 
essentially take a 10-year time lapse photo of the universe. The data 
collected from the telescope will help astronomers confirm the 
existence and types of exoplanets in our solar system.
    The James Webb Space Telescope will use both transit spectroscopy 
and direct imaging to determine the make-up of exoplanet systems in our 
galaxy. This is an exciting time in the fields of astronomy and 
astrophysics. I look forward to hearing our witnesses' perspectives on 
these issues.
    Thank you, Mr. Chairman, and I yield back the balance of my time.
    Chairman Palazzo. Now I will introduce our panel of 
witnesses. Our first witness is Dr. Laurance Doyle, the 
Principal Investigator for the Center for the Study of Life in 
the Universe at the SETI Institute. Our second witness is Dr. 
John Grunsfeld, the Associate Administrator of the Science 
Mission Directorate at the National Aeronautics and Space 
Administration. And our final witness is Dr. James Ulvestad, 
Director of the Division of Astronomical Sciences at the 
National Science Foundation. Previously, he was the Assistant 
Director of the National Radio Astronomy Observatory. He served 
in various capacities at the NASA Jet Propulsion Laboratory, 
where he played an important role in several interagency and 
international programs.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which Members of the Committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing.
    I now recognize our first witness, Dr. Doyle, for five 
minutes for his testimony.

                TESTIMONY OF DR. LAURANCE DOYLE,

                    PRINCIPAL INVESTIGATOR,

         CENTER FOR THE STUDY OF LIFE IN THE UNIVERSE,

                         SETI INSTITUTE

    Dr. Doyle. Thank you for inviting me. It is an honor to be 
here.
    My work in extrasolar planet research stretches back about 
30 years, which is a decade before the first extrasolar planets 
were actually discovered. At that time there were only two 
other people in the world working on the transit method, John 
Schneider and William Borucki, who is the PI of Kepler. The 
transit method involves the detection of a planet as it orbits 
in front of its star. In other words, one could say that one is 
detecting the shadow of the planet. Today there are thousands 
of astrophysicists and their students working using the transit 
method to study and detect extrasolar planets.
    In the early years of this research, I was able to identify 
three methods for detecting extrasolar planets. In the 1990s I 
directed an international network of telescopes to search for 
circumbinary planets. As a participating scientist with Kepler, 
I have been able to collaborate with the eclipsing binary 
working group in the discovery of several thousands of new 
eclipsing binaries. These are stars that orbit in front of each 
other, and if they are in the background of an extrasolar 
planet, they can look like the transit of a planet, so you have 
to catalog all the eclipsing binaries.
    My main work, though, as a participating scientist with 
Kepler has been the detection of circumbinary planets, that is, 
planets that orbit around two stars at the same time. This 
was--the first transiting circumbinary planet was discovered in 
2011, and it was called Kepler-16b. We began calling this 
planet Tatooine, because the Star Wars hero Luke Skywalker was 
watching a double sunset. And what we didn't know is someone 
called George Lucas and asked him if we could nickname it 
Tatooine and he sent the Director of Industrial Light and Magic 
to the NASA press conference. So basically worldwide press 
picked up this as ``Tatooine discovered,'' but it was a great 
example of science fiction turning into science fact. And I 
like to think it had inspired many students worldwide to study 
math and science so they could turn science fiction into 
science themselves someday.
    In the context of the search for life in the universe, the 
Kepler mission has already made a huge contribution. At the 
SETI Institute, we have scientists working on all aspects of 
detection of life in the universe, including robotic landing 
missions and radio telescope searches. About 50 SETI Institute 
scientists are currently working on the Kepler mission. For 
about 50 years, SETI astronomers could only target stars. Now 
that Kepler has discovered the frequency of planets, we now can 
actually target planets that we know to be in the habitable 
zone of their stars. This is a huge step as far as the search 
for extraterrestrial intelligence.
    The next step in detecting life in the universe will be 
most likely to find biomarkers in the atmospheres of extrasolar 
planets. An example of this is oxygen, which is highly 
indicative of photosynthetic systems like forests, seaweed, 
microflora and so on. Taking a remote spectra of the Earth, the 
detection of oxygen would be indicative of plant life, possibly 
animal life, and maybe even intelligent life. So, it could be 
that the first detection of extraterrestrial life will be 
forests.
    Finally, to answer the question that is the title of this 
session, ''Have we found other Earths?'' we know that the best 
candidate to date is Kepler-62f, but it is also 1.4 times the 
Earth's radius. It may be slightly too big to recycle its 
atmosphere with plate tectonics, but we don't know for sure. A 
lot of modeling still has to take place. So I would say the 
safe answer to the question is ``almost.''
    Within the next few years, Kepler will likely be able to 
detect exactly Earth-size planets. To put this in perspective, 
2,400 years ago, the ancient Greek philosopher, Metrodorus of 
Chios wrote this: ``To consider the Earth as the only populated 
world in infinite space is as absurd as to assert that in an 
entire field sown with millet, only one grain will grow.'' 
Within the next few years we will have the privilege of finding 
the actual answer to this age-old question: ``In the universe, 
is there another place like home?'' I think with the Kepler 
mission, we are just on the verge of answering ``yes.''
    [The prepared statement of Dr. Doyle follows:]
    [GRAPHIC] [TIFF OMITTED] 81191.007
    
    [GRAPHIC] [TIFF OMITTED] 81191.008
    
    [GRAPHIC] [TIFF OMITTED] 81191.009
    
    [GRAPHIC] [TIFF OMITTED] 81191.010
    
    [GRAPHIC] [TIFF OMITTED] 81191.011
    
    Chairman Palazzo. I now recognize our next witness, Dr. 
Grunsfeld.

              TESTIMONY OF DR. JOHN M. GRUNSFELD,

                    ASSOCIATE ADMINISTRATOR,

               SCIENCE MISSION DIRECTORATE, NASA

    Dr. Grunsfeld. Mr. Chairman, Members of the Committee, 
thank you very much for the opportunity to appear before you 
today to discuss what I consider an incredibly exciting 
subject: extrasolar planets. As you have just heard, or 
exoplanets, which are defined as planets orbiting stars other 
than our own sun.
    As a young boy growing up in Chicago, I quite often laid on 
the grass at night looking up at the stars wondering is anybody 
out there, and even explicitly, are there planets around any of 
these stars. This wonder about the universe and the question of 
whether there are exoplanets helped to drive me into a career 
in science and engineering, ultimately to become an astronaut 
and now the head of Science Mission Directorat at NASA.
    NASA plays a key leadership role in the quest to discover 
and characterize distant exoplanets and search for life in the 
universe. We work with a variety of space-based and ground-
based telescopes and in concert with the National Science 
Foundation and our international partners in observatories 
around the world.
    Since the first exoplanet discoveries in the 1990s, over 
900 exoplanets have been discovered. There is an app on your 
smartphone you can check daily if you are really curious, and 
in just the last four years the Kepler mission has contributed 
over 122 confirmed exoplanets and has over 2,700 candidates 
most of which will probably turn out to be real exoplanets.
    Thanks to the Kepler mission, the statistics suggest that 
when you look up at the night sky, outside of the District, of 
course, because it is hard to see very many stars, virtually 
all of those stars have planets. At least one planet and 
perhaps a whole solar system around them. Even more exciting is 
the more commons star in our galaxy, an M-class star. About 15 
percent, or one in six of those stars, has a rocky planet in 
the habitable zone, and that is what Kepler has told us, if the 
statistics hold out more generally.
    The Kepler team recently announced the discovery of rocky 
planets a little bigger than the Earth around their host stars 
and one of which, Kepler-69c, around a star very much like our 
own sun. The nearest habitable exoplanet, habitable meaning 
liquid water could exist on its surface, may be as close as 15 
light-years away.
    When the Hubble Space Telescope was launched, no exoplanets 
had been found and we had nine planets in our own solar system, 
now eight. Since then, the Hubble has not only directly imaged 
solar systems, one with three planets, but it has also measured 
the components of the atmosphere around one of those planets. 
Along with Kepler and Hubble, the Spitzer Space Telescope, the 
NASA Keck ground-based telescope in Hawaii and many other 
ground-based telescopes are contributing to the rapid pace of 
discovery in this exciting field.
    In 2018, we will launch the James Webb Space Telescope, and 
that will give us a big leap in capability and our ability to 
study exoplanets. When we started designing the James Webb 
Space Telescope, again, we had not yet discovered any 
exoplanets. But its infrared capability, the fact that it has a 
coronagraph and its ability to take the spectrum of the light 
from these exoplanets will really tell us a lot about the 
atmospheres and the components of those systems.
    But even before James Webb Space Telescope, we are going to 
launch the Transiting Exoplanet Survey Satellite just selected 
as part of our Explorer program and it is going to do an all-
sky survey of the nearest and brightest stars, our neighbors, 
to see if there transiting exoplanets around those stars. With 
the TESS information, we will be able to target the James Webb 
Space Telescope, also the Atacama Large Millimeter Array 
sponsored by the National Science Foundation to really learn 
about these closest neighbors. All these telescopes will work 
together to answer the basic questions about these distant 
solar systems: determine the size of the planets, their mass, 
their characteristics, their atmosphere, their composition. 
Very exciting work ahead.
    Looking to the future, NASA funds technology development 
for exoplanet research and is studying the use of an existing 
telescope asset you may have heard about that we got from the 
National Reconnaissance Organization that will have a 
coronagraph that will be able to study the atmosphere of these 
distant plants in much more detail by directing imaging. We are 
also studying other techniques that will be infused into future 
telescopes that will be able to characterize an Earth-sized 
planet around a nearby star and search for evidence of life 
beyond our solar system.
    NASA is aware that exoplanets are of great interest to the 
public, the science community, and they bring together many 
scientific disciplines. That is one of the reasons why all of 
our data from Hubble, Spitzer and Kepler is all made available 
to the public, and this has resulted in an explosion of 
discoveries well beyond the NASA-funded research, including a 
number of discoveries by citizen scientists.
    In conclusion, NASA has a comprehensive program to detect 
and characterize exoplanets. And with the progress we have 
already made, I am confident that it is not a question of 
whether or not we will find an Earth-like exoplanet but when. 
With our program, the active participation of a rapidly growing 
scientific community, and our partners, we will continue to 
make major strides forward in our understanding of the science 
of exoplanets, and programs like Kepler capture the imagination 
of everyday people. I think that is why you are all here, that 
you are also interested including our students, who will be the 
scientists and engineers of tomorrow. NASA has exciting 
missions like the Hubble, the James Webb Space Telescope, TESS 
and Kepler to reach even farther back in time, to unravel the 
mysteries of the universe, and to start characterizing and 
analyzing the atmospheres of exoplanets. The future of 
exoplanet research is bright, and NASA will continue to play a 
leadership role in that future.
    I look forward to your questions, and I have one very short 
comment, which is, at the end of almost every public 
presentation I make, I have a quotation--it is a quotation from 
Tennyson that I have editorially modified, and it says ``For I 
dipped into the future as far as human eyes could see, saw the 
vision of the new worlds and all the wonders that would be.'' 
Thank you very much.
    [The prepared statement of Dr. Grunsfeld follows:]
    [GRAPHIC] [TIFF OMITTED] 81191.012
    
    [GRAPHIC] [TIFF OMITTED] 81191.013
    
    [GRAPHIC] [TIFF OMITTED] 81191.014
    
    [GRAPHIC] [TIFF OMITTED] 81191.015
    
    [GRAPHIC] [TIFF OMITTED] 81191.016
    
    [GRAPHIC] [TIFF OMITTED] 81191.017
    
    Chairman Palazzo. I now recognize our final witness, Dr. 
Ulvestad.

           TESTIMONY OF DR. JAMES ULVESTAD, DIRECTOR,

               DIVISION OF ASTRONOMICAL SCIENCES,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Ulvestad. Good morning, Chairman Palazzo and Chairman 
Bucshon, Ranking Members Edwards and Lipinski, and Subcommittee 
Members. Thank you for giving NSF the opportunity to speak to 
you today about our support of exoplanet research.
    For millennia, people have looked up in the sky and 
wondered if there is other life out there, if there are other 
people out there. Determining if there were other planets 
around other stars was really something that couldn't be done 
for almost 400 years after Galileo first turned his telescope 
to the heavens. So when I was in graduate school at Maryland in 
the late 1970s, early 1980s, we never would have dreamed that 
we could be at the place where we are now speaking about Earth-
like planets. But just 20 years after the first detection of 
planets around other stars, we are now seriously talking about 
Earth-sized planets in the habitable zones of other solar 
systems, which I think is quite spectacular.
    NSF has supported exoplanet research since its infancy. The 
first detections were made actually with NSF's Arecibo radio 
telescope in 1992 and it was very surprising to find planets 
around a compact star called a neutron star, which was not 
where people were looking. So I think exoplanet research over 
the 20 years since then has been full of surprises--planets 
much, much bigger than Jupiter very, very close to their stars, 
and these surprising outcomes have totally revamped the way we 
think about solar systems and the way planets form.
    At NSF, the exoplanet research that we fund relies on three 
critical elements: investigators, that is, people; tools, that 
is, telescopes; and technology development. So we presently 
have more than 40 active awards to individual investigators who 
are doing exoplanet research, and many of these are people just 
beginning in our field. There are early career awards, there 
are postdoctoral fellowships, and this field is so exciting 
that a lot of the young people who are going into the field of 
astronomy actually want to work in this area. With our 
international partners, we provide the ground-based telescopes 
that complement the space-based telescopes that Dr. Grunsfeld 
has mentioned that are needed to make precision measurements of 
planetary systems. And third, and not to be neglected, we 
support technology development that is very important for 
getting us to the stage where we can detect planets as small as 
the Earth. For example, we support technology development that 
can be used to get more accurate wavelength standards that 
enable precision measurements of stars to determine motions 
that are being caused by planets with masses as low as the 
Earth.
    As exoplanet science enters its third decade, we are 
growing beyond just the counting of planets. Dr. Grunsfeld 
mentioned more than 800 or 900 confirmed planets but now we are 
funding research at NSF into characterizing planetary 
properties, into measuring exoplanet atmospheres, and into the 
formation and evolution of planetary systems. Starting next 
year, a new $25 million instrument on our Gemini telescope in 
the South will be used to image up to 600 other nearby stars, 
trying to image planets. This instrument cannot image planets 
right next to the star but out at the distance of Jupiter and 
beyond.
    Over the last four years, NASA's Kepler satellite, as 
mentioned previously, has opened these wonderful new 
opportunities, and just to mention the complementary science, 
some of the recent discoveries have actually been made using 
Kepler data by investigators that NSF funds. We have an NSF 
early career investigator who helped develop the technique that 
was used to detect these two planets, Kepler-62e and f, that 
are thought to be in the habitable zone around Kepler-62.
    We are in the process of completing a very large instrument 
called the Atacama Large Millimeter Array, which was dedicated 
in Chile two months ago, and this, even in its pre-dedication 
phase, has detected the presence of Earth-mass planets around 
the bright star Fomalhaut, which you can see with your naked 
eye in the night sky just 25 light-years away. ALMA will in 
fact be incredibly complementary to the James Webb Space 
Telescope, with James Webb in the near infrared, and with ALMA 
in the far infrared, both imaging dust shells and circumstellar 
discs around nearby stars at approximately the same resolution. 
As with all of NSF's major facilities, the data acquired with 
these instruments will be available to all investigators, not 
just to the people who propose to get the data.
    One of the key goals of NSF's strategic plan is to 
transform the frontiers of science and engineering, and we 
think that since the very first exoplanet detections, NSF-
funded research has transformed the frontiers of exoplanet 
research. We will be very interested to see how the frontiers 
continue to be transformed over the next 20 years.
    Mr. Chairman, this concludes my remarks, and I would be 
happy to answer any questions you and the Subcommittee Members 
might have.
    [The prepared statement of Dr. Ulvestad follows:]
    [GRAPHIC] [TIFF OMITTED] 81191.018
    
    [GRAPHIC] [TIFF OMITTED] 81191.019
    
    [GRAPHIC] [TIFF OMITTED] 81191.020
    
    [GRAPHIC] [TIFF OMITTED] 81191.021
    
    [GRAPHIC] [TIFF OMITTED] 81191.022
    
    [GRAPHIC] [TIFF OMITTED] 81191.023
    
    Chairman Palazzo. I thank the witnesses for their 
testimony, reminding Members that Committee rules limit 
questioning to five minutes. The chair will at this point open 
the round of questions. The chair recognizes himself for five 
minutes.
    Dr. Grunsfeld, the Space Telescope Science Institute 
indicated that a telescope larger than JWST is needed to detect 
biosignatures from terrestrial-like exoplanets. They also 
indicated that a heavy-lift launch vehicle such as the Space 
Launch System is needed to launch a telescope this size. How 
does the development of the SLS enable future exoplanet 
discoveries?
    Dr. Grunsfeld. The Space Launch System, our large rocket in 
development, has the characteristic of course that it can lift 
heavy weights but almost of equal importance for science is 
that it has a very large launch route and so a future telescope 
that would have the light-gathering capability to detect and 
measure the bioscience, if you will, of a very, very dim planet 
around a very bright star will require a lot of collecting area 
and advanced instrumentation, and such a large telescope if you 
think about how James Webb Space Telescope is going to launch, 
and I know Chairman Smith, you have seen the model, that all 
gets folded up like origami and transformed into a launch route 
of an Orion V rocket, very big. That is about the largest thing 
we can put into space in a conventional rocket. The Space 
Launch System is transformative and this very large launch 
route would enable us to scale that up to something that would 
be a telescope that could detect life around a nearby Earth-
like planet. So we are looking very favorably on the 
development of SLS.
    Chairman Palazzo. Also, Dr. Grunsfeld, how does NASA plan 
to manage education and public outreach related to exoplanet 
discoveries in the wake of the proposed reorganization of 
education and outreach funding? Are there any anticipated 
changes to the education and public outreach strategy? And how 
would the proposed reorganization impact the inspiration of the 
next generation of explorers?
    Dr. Grunsfeld. Well, the first thing that I will say is 
that the critical component in the inspiration of our next 
generation of explorers, scientists, engineers and even more 
important, to have a very broad educated populace in the 
scientific method and basic science is to do exciting things 
that produce exciting scientific results that we can then get 
out into the public domain. That is the number one requirement, 
and on that scale, we are changing nothing. NASA is going to 
continue working with NSF and the rest of the scientific 
community to try and make exciting discoveries. I think when we 
find a rocky planet around a nearby star that we think is very 
Earth-like, that is going to be incredibly exciting, and if we 
are so lucky to detect life on a planet like that, I think it 
will be transformative to humans here on Earth.
    As far as our NASA education, the President's Fiscal Year 
2014 proposal to consolidate the science, technology, 
engineering and mathematics education infrastructure from a 
number of agencies into three primary agencies, NASA is part of 
that plan and so our education activities will be transferred 
and the budget with them will be transferred to a combined 
Department of Education, Smithsonian and National Science 
Foundation architecture. That plan is still in development. 
Clearly the Administration has as its intention that this will 
strengthen the STEM education in our country. One of the things 
that I am very proud of is that our science missions and the 
scientists who do that work spend time currently reaching out 
to master teachers, to pre-service and in-service teachers and 
all the way through students, and so whatever plan emerges from 
this new reorganization it is critical that we preserve that 
connection with the great science.
    Chairman Palazzo. And my final question is for Dr. 
Grunsfeld. The National Academies issued their Decadal Survey, 
New Worlds, New Horizons, that laid out the path forward for 
astronomy and astrophysics. How does NASA plan to adapt its 
plans for exoplanets now that we are facing a tougher budgetary 
environment?
    Dr. Grunsfeld. Well, I did bring a graphic. I don't know if 
that is easily available to come up. We have in our current 
portfolio of exoplanet research, and again, it is all done in 
concert with National Science Foundation but also private 
observatories, but we use ground-based observatories, currently 
Hubble, Spitzer and Kepler, to investigate exoplanets. So that 
is our current stable of very powerful telescopes, and that is 
what has allowed us to make all this tremendous progress, as 
well as other ground-based observatories.
    The Transiting Exoplanet Survey Satellite was selected out 
of our competitive program but it does advance us quite 
significantly in exoplanet investigations in that it will find 
all of the closest transiting exoplanets, and that will allow 
us to use both ground-based and space-based observatories to 
start characterizing the nature of these planets, even down to 
measuring the atmospheres of the planets around these nearby 
stars. If we find something like an Earth, that will allow us 
to start looking for signs, even with James Webb Space 
Telescope, of water in the atmosphere, and if you have water in 
the atmosphere of a rocky planet in the habitable zone, that 
means there is probably lakes and clouds and precipitation. 
That gets us a long way towards that question of could there be 
life.
    Next, of course, is James Webb Space Telescope. The next 
two that are kind of dim are addressing what is in the New 
Worlds, New Horizons, and so the first one is an Astrophysics 
Focused Telescope Asset. That is just code for a study we are 
doing, which is to use the 2.4-meter optic system that we 
received from disposition of a National Reconnaissance Office 
asset, and we are looking at that as a wide-field telescope 
that meets the WFirst science requirements and with the 
addition of a coronagraph, something that blocks out the light 
of the central star, would allow us to study nearby exoplanets 
in greater detail than we could have ever done with anything we 
have currently on the plate.
    Then beyond that, the New Worlds Telescope--that is just 
how it was described in the Decadal Survey--would be this very 
large telescope, something where the James Webb Space Telescope 
is 6-1/2 meter diameter, about 20 feet, in order to actually 
detect life signs, if they are there, of a planet around a 
relatively nearby star, we would probably have to go to 16 or 
20 meters in diameter, and that is the one that was referenced 
in your Space Launch System question.
    So we have studies going, technology work on prototype 
detectors per those future lines. Given the constrained 
physical environment, we are looking very closely at this NRO 
asset as a way to bring down the cost of doing the next great 
astrophysics mission.
    Chairman Palazzo. Thank you, Dr. Grunsfeld. I now recognize 
Ms. Edwards for five minutes.
    Ms. Edwards. Thank you very much, and thanks to our 
witnesses. I have to say, the work that you do is among the 
most exciting that those of us who are laypeople can think 
about. It truly is, and so thanks so much for everything that 
you do.
    Dr. Grunsfeld, I want to follow up with your last response, 
and it really does have to do with this constrained fiscal 
environment because a number of the things that each of you has 
laid out requires an allocation of resources over a period of 
time for us to get on with, if you will. And so I wonder if you 
can tell me how the current budget environment is really 
affecting exoplanet research and the additional technologies 
that are going to be needed over this next decade, and what are 
the likely impacts if we should continue with sequester into 
Fiscal Year 2014?
    Dr. Grunsfeld. So there is no question that the budget 
environment has caused us to have to make some tough choices, 
and whenever we try and make those tough choices, we think 
about balance, we think about scientific priorities, and in the 
case of exoplanets we are very fortunate that we have high-
value observatories on orbit, and so one of the things we have 
to prioritize is what are we going to keep operating on orbit 
providing high scientific return. The latitude we have for 
adjusting to a changing budget is really in the start of new 
projects, and so as an example, even though we have selected 
the Transiting Exoplanet Survey Satellite, TESS, we have had to 
slow the start of that mission by about six months, just what 
we have seen from this year and looking into Fiscal Year 2014. 
If we continue into a sequestered environment, then we are 
going to have to look at perhaps turning off an operating 
observatory or cutting back further on the development of new 
missions, and something like the study for the NRO Asset 
Telescope, AFTA, you know, we would have to reduce our 
investment in that future, which would of course slow that down 
further.
    Now, we haven't--that is a study. We haven't approved or 
come to you to ask for approval either. That is not approved 
internally within NASA or externally. We are just looking at 
the feasibility right now on that. But it would slow down 
future development.
    Ms. Edwards. Dr. Ulvestad?
    Dr. Ulvestad. Yes, I would say there are two primary issues 
that we would have to think about in terms of the constrained 
fiscal environment. One is that some of the new observatories 
that I spoke about are more expensive to operate than the older 
observatories that we used to have, and so in a constrained 
environment, in order to operate those new tools, what 
sometimes has to give in the short term is the research grants 
to individual investigators. As an example, I will cite the 
ALMA Telescope, which we are just bringing online, which we 
expect to be used very strongly in conjunction with JWST. So I 
will just mention that. That is actually one of the ways that 
we will maximize the sciences by trying to have these space and 
ground assets work together on coordinated programs. But one of 
the issues that we will run into for ALMA, which is an 
international telescope, is that if we are not able to fund our 
investigators to do the research and to bring their postdocs 
and graduate students in, some of the best exoplanet science 
with that telescope might be done by our international partners 
and not by the U.S. investigators. So I think that is a very 
serious concern for us.
    The concern other than that is just being able to make sure 
that having invested lots of money in these big tools that we 
are able to operate them adequately, that we don't start doing 
things like scrimping on the infrastructure because we are 
trying to save a little bit of money here and there and then 
essentially causing damage to the big investments we have 
already made.
    Ms. Edwards. Well, let me follow that up, because it is one 
of the concerns I have had, for example, with James Webb Space 
Telescope is that we actually got a lot of extended lifespan 
out of the Hubble because a lot of upgrades were made over a 
period of time and so that gave us a tremendous bang for the 
buck. But the question is whether if we face future delays into 
2018 will we, beyond then, be able to get more bang for the 
buck out of JWST in the same way that we did out of Hubble.
    Dr. Grunsfeld. Quite a long time ago, we looked at making 
the James Webb Space Telescope serviceable similar to the 
Hubble, and largely due to the fact that it is an infrared 
telescope and it has to be very, very cold, its design was to 
put it a million miles away from Earth, and that is a very 
inaccessible place, and so we abandoned the idea of visiting it 
and upgrading it. So the James Webb Space Telescope doesn't 
have the capability for upgrades the way Hubble does. So what 
determines the James Webb Space Telescope lifetime is really 
the onboard fuel, and so we have designed it to a design 
requirement of five years. At NASA we have redundancy, we have 
reserves, you know, we plan for failures and operations. We 
hope, and actually the engineering says we should get 11 years 
of life out of the James Webb Space Telescope in an actual 
operational mode that we think we will use.
    Given that framing, we are looking very closely, and I am 
very excited about the partnership observatories likes the 
Atacama Large Millimeter Array because that is the way we are 
going to maximize the output of the James Webb Space Telescope 
is by using our other assets. I have a little bit of a dream, 
but that dream is that not only will we have the ALMA and the 
James Webb Space Telescope, that we will also have some overlap 
with the Hubble Space Telescope, and engineering mechanics will 
determine that lifetime but right now Hubble is still doing 
well.
    Ms. Edwards. Thank you.
    Chairman Palazzo. I now recognize Mr. Bucshon for five 
minutes.
    Mr. Bucshon. Thank you, Mr. Chairman. I am going to make a 
comment first and then a couple of questions.
    This is not the only hearing that we have heard from people 
who depend on so-called discretionary spending at the Federal 
level, and my comment is, is that until the American people can 
help us address the entire piece of the Federal spending pie, 
of which 60 percent we are not addressing today in Washington, 
D.C., people who depend on discretionary spending are going to 
continually feel the pinch, which is problematic, as Ms. 
Edwards pointed out. At this point there is really only one 
significant proposal in Washington, D.C., to address the 60 
percent of the pie that is on our side of the aisle in our 
budget, and until the American people help us address that, we 
are going to continue to have ongoing discretionary-funding 
problems because most of the driver of our national debt is not 
in discretionary programs, it is in mandatory spending, and 
everyone in D.C. recognizes that as a major issue.
    The question I have, the first question I have is, I guess 
any one of you can address it, and I think it is important when 
people like me go back to Indiana and talk to people about 
where we spend money and why, and so Dr. Grunsfeld, in short 
order, what can I tell people why what you are doing is 
important to the American people?
    Dr. Grunsfeld. Well, there are a couple of different levels 
but I will try and keep it short. The first is that investments 
in NASA and the National Science Foundation in basic research 
is really the investment in our future, and it is not an 
abstract thing. Vannevar Bush and the Endless Frontier, the 
document that helped spur on the creation of the National 
Science Foundation really queued it up as our investigations in 
basic science are what are critical to our economic prosperity, 
our health care and the future of the country, and it is just a 
wonderful document to read because that is coming out of World 
War II, and the question was asked, how did science help us win 
the war, and then generate such a strong economy. If we start 
cutting back on the basic research, on trying to solve very 
hard problems like how to build the instruments on James Webb 
Space Telescope that challenge our industry, that challenge our 
engineers, that allow these companies to grow new techniques 
and new competitive tools, we will just continue to start 
losing ground on the kinds of innovations that drive our 
economy, and that is a very tight loop and well-documented 
loop.
    At the other end of the extreme is this idea of kids 
looking up in the night sky, and I think we have all done that, 
and the science tells us things that just inspire us, that 
cause us to want to look towards the future, to have vision, 
that drives people through hard times and that makes it into 
the science textbooks that hopefully our students then bring 
with them as they become future decision makers in our country, 
not just in Congress but as medical doctors, and most 
importantly, as parents of children, that they have the 
knowledge to make good decisions based on technical knowledge. 
Thank you.
    Mr. Bucshon. Okay. I assume everyone is going to have a 
similar response because I have another question that I want to 
ask. By the way, I agree with you. I think that when I talk to 
people about NASA, and this comes up all the time, I pull out 
the list of things that have been developed technologically and 
innovations that have come through NASA that aren't just about 
putting a person flying around the Earth and going to the moon 
but all the other things that happened as a result of 
developing the technology to make that occur.
    My second question is, I am always interested when I see--
and I hate to focus on NASA--like our project on Mars is that 
we are looking for water, we are looking for carbon-based life 
forms, and there are other--that is our definition of life, so 
to speak. Are there other people out there that have other 
definitions of life that are looking at that we might also be 
exploring for?
    Dr. Grunsfeld. Well, I think that is a good question for 
Dr. Doyle from the SETI.
    Mr. Bucshon. That would be great.
    Dr. Grunsfeld. I will say that the Curiosity Rover, 
although it has the scientific instruments, the mass 
spectrometers to look at all the components of the soil we are 
digging up and looking for some signs of perhaps previous 
carbon stuff going on, it would see many other things, but I 
will pass that to Dr. Doyle.
    Dr. Doyle. I will just say the definition, some of the 
people working in the field of exobiology are looking at the 
definition of life as anything that can store information. So 
there is a broad brush there. So there are studies going on 
about a broader definition. Right now you have to work with 
what you know, but silicon-based information storage and 
crystals and so on has not been out of the realm of 
consideration.
    Mr. Bucshon. Thank you. I yield back.
    Chairman Palazzo. I now recognize Mr. Lipinski for five 
minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. I just want to start 
out by asking Dr. Grunsfeld about the status of the decision on 
what to do with the telescopes donated by NRO. You had 
mentioned them, but has that all been determined what is going 
to be done with those?
    Dr. Grunsfeld. So the answer is no, we haven't determined 
what is going to be done with those. That is the subject I was 
talking about of the Astrophysics Large Focused Telescope Asset 
that we have done a study on. At the end of this month, I will 
get the results of that study and then we will brief 
Administrator Bolden, and that would us to go to the next step 
from just the study phase to actually, if he approves it, 
seeing if we should start doing some engineering to validate 
that those telescopes could actually be used for a future space 
telescope. So, right now our focus is on completing the James 
Webb Space Telescope. As we get further into development of 
that telescope, then we could start seriously thinking about 
building another mission of some kind, whether in astrophysics 
or another area. We are very excited about what we are seeing 
so far, and I am happy, once Charlie Bolden, our Administrator, 
has dispositioned it, to come back and talk to you about it.
    Mr. Lipinski. Very good. I want to ask all the panelists, 
what, if anything, is needed to further facilitate the 
coordination and collaboration between the NSF and NASA on 
exoplanet exploration and research? Is there anything more that 
would help? Any places for improvement that you see?
    Dr. Ulvestad. Let me start with that. I think that as you 
heard from our testimony, we understand very well how our 
different assets could work together with each other, and we 
are in pretty regular communication about setting up joint 
programs and so on. In fact, I think one of the key elements is 
actually even working at a lower level, which is that our 
program officers in the two agencies actually talk to each 
other regularly. We had a meeting of all of our program 
officers in our Astronomical Sciences Division and NASA's 
Astrophysics Division about a month and a half ago just to talk 
about making sure that we kept our lines of communication open, 
making sure that we understood which proposals we were getting 
and they were getting for research so that we were doing 
complementary things and not doing duplicative research. I 
think that is a very important aspect of our coordination, to 
maximize the efficiency of the funding. I would say that it is 
not clear to me that we need a lot of help as long as we keep 
talking to each other, which we are doing very regularly right 
now. So I will yield to Dr. Grunsfeld and see what he would 
like to say about that.
    Dr. Grunsfeld. I would concur on that. I wouldn't take this 
too far but I think one of the effects of always being budget 
limited for research in space astronomy and ground-based 
astronomy is that you are forced to be very communicative and 
creative with your partners to make sure that you don't have 
duplication because there isn't enough money to be able to 
duplicate things. In the case of the National Science 
Foundation and the NASA efforts on exoplanets, it is a very 
nice division because we use basically the space-based and 
ground-based as the first natural breakpoint.
    Mr. Lipinski. Thank you.
    Dr. Doyle. I would just say that SETI Institute is a 
nonprofit and there are many research institutions that are 
rather small, but they have started up support of exoplanet 
research. For example, Planet Hunters has millions of people 
that go home at night and start looking for planets. So there 
is this huge upswell of millions of supporters of exoplanet 
research that is also in kind of the nonprofit realm as well 
that could be tapped.
    Mr. Lipinski. That is always good to hear. I know we have a 
lot of Members here and a short time, so I will yield back the 
rest of my time. Thank you.
    Chairman Palazzo. I now recognize Chairman Smith for five 
minutes.
    Chairman Smith. Thank you, Mr. Chairman.
    Actually, my first question, I think, has largely been 
answered, and it was, how do we expedite the process of 
searching for exoplanets, and it sounds to me like we need to 
stay on track with the exoplanet missions that Dr. Grunsfeld 
highlighted a while ago. Would you all agree, Dr. Doyle and Dr. 
Grunsfeld, that the first thing we need to do is make sure the 
current missions that have been proposed are funded and not all 
had been funded? Would that be your recommendation?
    Dr. Grunsfeld. Well, I am glad to say that----
    Chairman Smith. Or are there any other missions that we 
ought to consider?
    Dr. Grunsfeld. So I agree with you completely. The plan we 
have is, I think, the best plan that we could have and the 
Administration's proposal for Fiscal Year 2014 funds us to go 
on with the next mission, which is the Transiting Exoplanet 
Survey mission, and fully funds James Webb Space Telescope. All 
of that said, ultimately nature will determine when we find the 
first planet that looks just like Earth.
    Chairman Smith. And Dr. Doyle, are there any other missions 
we should be considering other than the ones that need to be 
funded?
    Dr. Doyle. Well, I think the ones currently are quite well 
planned. They do an all-around survey, and then to follow 
through with detecting exolife basically. So I think we are on 
track.
    Chairman Smith. Dr. Grunsfeld, I was going to point out, I 
think when you quoted Alfred Lord Tennyson, you didn't realize 
that we had the quote that you mentioned on the wall behind the 
podium, or did you notice that?
    Dr. Grunsfeld. I noticed that in 2003 when I was Chief 
Scientist, and that is when I started putting it into my 
presentation.
    Chairman Smith. Good. Then we came first. As you know, it 
is a long poem, and that is the refrain that is repeated 
throughout the poem, so it really has a good impact.
    Dr. Ulvestad, you mentioned our international friends and 
the missions that they have initiated. Do you think we should 
perhaps duplicate some of those missions or should we rely upon 
information that we get from them?
    Dr. Ulvestad. Well, I think that what we are doing right 
now with our international colleagues is, we are not doing 
duplication, we are actually going in together to build one 
telescope that any one of us would find it difficult to afford 
by ourselves.
    Chairman Smith. So that is mutually beneficial?
    Dr. Ulvestad. Yes, I think that is mutually beneficial, and 
an example--and we keep coming back to the Atacama Large 
Millimeter Array, but originally there were concepts for a 
similar telescope in Japan, in Europe and in the United States, 
three different telescopes that were all going to end up fairly 
close to each other in Chile. Rather than building those three 
separate telescopes, by the three areas of the world coming 
together, we were able to build one much more capable telescope 
that we all can use.
    Chairman Smith. Okay. Thank you. Let me ask you all this 
final question, and that is, what new technology do we need to 
develop in order to expedite the process of detecting organic 
life on an exoplanet, and do we need to do more than we are 
doing? If so, what do we need to do and when do you expect us 
to have that blockbuster news that there is possible life on 
another planet? Dr. Doyle?
    Dr. Doyle. Well, of course, as mentioned, you need a much 
larger telescope, but the detection of oxygen would be 
definitely an indicator of life on another planet. If it 
transits, you can also--that is another method for detecting 
oxygen on an exoplanet.
    Chairman Smith. Do we have the technology now to detect 
oxygen on another planet?
    Dr. Doyle. If there was a very close star like an M star 
and a very close orbit and we got lots of transits and we could 
differentially subtract, we might be able to squeeze by and get 
an oxygen line or so. But the next mission, of course, is to 
get the nearby transiting planets, and then we could consider--
like Dr. Grunsfeld said, nature is the one that will decide 
whether we can do that in the near future.
    Chairman Smith. Dr. Grunsfeld, anything more we should be 
doing to expedite that time?
    Dr. Grunsfeld. A critical limitation is really the ability 
to separate the light from a bright star from the light from a 
very dim planet next to it that is in reflected light, and so 
we are spending a fair amount of technology funds and 
researchers working on techniques to do that light suppression 
across a broad variety of fronts, four or five different 
techniques. So we are making a lot of progress. I think within 
five years, we will have demonstrated that if we put one of 
those instruments on a new large telescope, we would be able to 
detect essentially signs of life if they are as obvious as they 
are on Earth.
    Chairman Smith. We are going to hold you to that within 
five years.
    Dr. Grunsfeld. We will have the technology. You can hold me 
to that.
    Chairman Smith. Okay. Dr. Ulvestad, any more thoughts on 
that?
    Dr. Ulvestad. I think the key that Dr. Grunsfeld just 
referred to is really being able to separate the light of a dim 
planet, which a planet like Earth is dim when it is many light-
years away, from the light of the very bright star that is its 
host. For instance, the instrument I mentioned in our Gemini 
telescope is one of the steps along the way, but I also 
mentioned that it could only detect planets that were out 
farther than Jupiter, which is not where we expect Earth 
planets to be. We have still got a ways to go to be able to 
dull the star down to the dimness we require.
    Chairman Smith. Thank you all for your testimony. Thank 
you, Mr. Chairman.
    Chairman Palazzo. I now recognize Ms. Bonamici for five 
minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member, for this interesting hearing, and thank you to the 
witnesses for your expertise. I am going to ask two questions 
together because in the interest of time, hoping that each 
witness can respond to each. We have also had discussions in 
this committee about near-Earth objects and the potential for 
asteroid incidents, and in those hearings we talked a lot about 
international collaboration because obviously this is not just 
an issue that affects our country. So will you each discuss 
briefly the nature of international collaboration in the 
exoplanet research? The second question has to do with more of 
a big-picture issue. As Members of this Committee, we are 
privileged to be frequently presented with this extensive 
information on these issues and hear from people with 
expertise, and then when we are back in our districts, we often 
find that the public at large lacks specific information about 
the work that NASA is doing, and importantly, how it affects 
them. So with that in mind, could you also address how you 
publicize what you are doing, how you educate the public about 
not only the discovery of exoplanets but how to best translate 
that into the benefits to the public at large. Thank you. I 
will ask each of you to respond to those two issues.
    Dr. Grunsfeld. I will go ahead and start. Almost everything 
we do in NASA has large international collaboration--the 
International Space Station, the James Webb Space Telescope. 
These are partnerships where there is integral collaboration 
between the European Space Agency, the Canadian Space Agency, 
the United States, in the case of the space station, Russia and 
Japan, and these are working great. I would say probably 90 
percent of everything in the Science Mission Directorate is an 
international collaboration at some level where we are 
contributing to leadership of a European instrument or another 
country is contributing to leadership in one of our programs. 
The James Webb Space Telescope is an example the United States 
is leading. Even on the Hubble Space Telescope, originally that 
was a 15 percent share of the European Space Agency. But when 
we actually go to use the telescope, it is very broad, and of 
course, all of our data is public and so anyone can actually 
use it and so that is much further.
    When we discover things, we put them out as press releases, 
we put them on Web sites, but more importantly, we have an 
educational public outreach program, where the scientists work 
with master teachers and that gets into curriculum materials, 
into the textbooks and into pre-service and in-service teachers 
who then work with millions of students. That is how we work 
through the educational side. Through more informal education, 
we reach out to libraries across the country, planetariums and 
museums. We do exhibits and shows. All of that contributes to 
the public knowledge of the science benefits from NASA.
    Ms. Bonamici. Thank you. Dr. Doyle?
    Dr. Doyle. On the Kepler team, I would say we have a huge 
number of countries represented. There is the Astrobiology 
Consortium, which is centered in Denmark, but there are 500 
members of that, and that is just a spin-off from the main 
Kepler science team. So I would say Kepler is automatically 
international.
    With regard to reaching out and educational activities, one 
of the things that we are doing is basically starting a series 
of a kind of a wiki university where people can learn about 
life in the universe from the SETI Institute and take classes 
and so on, and I don't see any reason why they couldn't pass 
the SAT after taking our classes. So it is free and online, and 
let us go for it.
    Ms. Bonamici. Thank you. Dr. Ulvestad?
    Dr. Ulvestad. Yes, first on the international front, like 
NASA, most of our major activities now are international in 
terms of building big telescopes and operating big telescopes. 
But I will honestly say that there is also some competition 
there in the use of those telescopes. We would like the 
scientists from the United States to actually be leading in the 
discoveries. So they may be in collaborations, and in fact 
often are with other international scientists, but we do want 
to make sure that the U.S. scientists have the opportunities to 
use the tools we have built.
    Now, you mentioned near-Earth objects so I will just pick 
up on that for a second. The number one ranking in the National 
Academy Decadal Survey for a ground-based instrument was 
actually something called the Large Synoptic Survey Telescope, 
and one of its science goals is to characterize the asteroid 
population in our own solar system and can do that very 
extensively including near-Earth asteroids. That happens to be 
not an international partnership but a partnership with the 
Department of Energy, so you may consider them international 
relative to NSF and NASA. They have slightly different cultures 
than we have. But that is a different sort of incredibly 
valuable partnership.
    With respect to the public information, one of the 
requirements we have at NSF for everybody who applies for a 
research grant and for our large facility managers is something 
called broader impacts. They are required to tell us what they 
are doing, will do in their grant for broader impacts to the 
public. So in getting ready for this hearing, I was actually 
looking at the research grants that we have been making on 
exoplanets over the last several years, and a large fraction of 
those people, their broader impacts involved going into high 
schools. It ranged between K-12 but high schools seem to be a 
particular point that they were interested in, and that, if I 
can pick up on a previous question, is very important because--
--
    Ms. Bonamici. I am sorry. My time is expired. I yield back.
    Chairman Palazzo. Thank you, Dr. Ulvestad. I now recognize 
Mr. Rohrabacher for a couple minutes, not the full five.
    Mr. Rohrabacher. Let me just note that we have been engaged 
in a search for intelligent life for a long time over in the 
Senate, however, and sometimes it is hard to determine.
    I just want to make sure we understand that the last 
mission concept does not necessarily rely on the SLS rocket, 
does it not? There are other two proposed architectures for 
this system that would not require us to build this big booster 
and instead could be launched on EELV-class launch vehicles. 
Isn't that correct?
    Dr. Grunsfeld. Yes. The Advanced Large Area Space Telescope 
concept is one of these new-world-type future large telescopes, 
and in that study there were three telescopes studied: an 8-
meter diameter----
    Mr. Rohrabacher. The answer is yes?
    Dr. Grunsfeld. The answer is yes.
    Mr. Rohrabacher. The answer is yes, so this is not--do you 
know what the budget for the SLS Launch System is?
    Dr. Grunsfeld. I----
    Mr. Rohrabacher. We don't know, so you don't know either. 
Quite frankly, that was a leading question.
    Dr. Grunsfeld. All right.
    Mr. Rohrabacher. And if that money was going to be taken 
out of your budget to develop the SLS Launch System rather than 
go with the launch systems that we have already got, would you 
be supportive of that?
    Dr. Grunsfeld. No.
    Mr. Rohrabacher. Right. I just want to make sure these are 
on the record because there is a lot of people pushing for the 
SLS Launch System and we don't even know what the budget is, we 
don't know where the money is coming from, and it is really 
possible if we do that, we will just defund all the things the 
SLS is supposed to carry, meaning your projects.
    The last thing is Arecibo Telescope. I noticed that the NSF 
Arecibo Telescope Observatory was actually the ones who found 
the first evidence in this exoplanet. Let me just note, we 
almost closed that down for lack of funds, and some of us 
understood just how important that was. Let us make sure we--
because that telescope really remains a very important part of 
the very projects that we are talking about. So, Mr. Chairman, 
thank you very much for the hearing and I just want to make 
sure we got on the record. Thank you.
    Chairman Palazzo. I want to thank the witnesses for their 
valuable testimony and the Members for their questions. The 
Members of the Committee may have additional questions for you, 
and we will ask that you respond to those in writing. The 
record will remain open for two weeks for additional comments 
and written questions from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:00 a.m., the Subcommittees were 
adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Laurance Doyle
[GRAPHIC] [TIFF OMITTED] 81191.024

[GRAPHIC] [TIFF OMITTED] 81191.025

[GRAPHIC] [TIFF OMITTED] 81191.026

[GRAPHIC] [TIFF OMITTED] 81191.027

[GRAPHIC] [TIFF OMITTED] 81191.028

[GRAPHIC] [TIFF OMITTED] 81191.029

[GRAPHIC] [TIFF OMITTED] 81191.030

[GRAPHIC] [TIFF OMITTED] 81191.031

[GRAPHIC] [TIFF OMITTED] 81191.032

[GRAPHIC] [TIFF OMITTED] 81191.033

Responses by Dr. John M. Grunsfeld
[GRAPHIC] [TIFF OMITTED] 81191.035

[GRAPHIC] [TIFF OMITTED] 81191.036

[GRAPHIC] [TIFF OMITTED] 81191.037

[GRAPHIC] [TIFF OMITTED] 81191.038

[GRAPHIC] [TIFF OMITTED] 81191.039

[GRAPHIC] [TIFF OMITTED] 81191.040

[GRAPHIC] [TIFF OMITTED] 81191.041

[GRAPHIC] [TIFF OMITTED] 81191.042

[GRAPHIC] [TIFF OMITTED] 81191.043

[GRAPHIC] [TIFF OMITTED] 81191.044

[GRAPHIC] [TIFF OMITTED] 81191.045

[GRAPHIC] [TIFF OMITTED] 81191.046

[GRAPHIC] [TIFF OMITTED] 81191.047

[GRAPHIC] [TIFF OMITTED] 81191.048

[GRAPHIC] [TIFF OMITTED] 81191.049

[GRAPHIC] [TIFF OMITTED] 81191.050

[GRAPHIC] [TIFF OMITTED] 81191.051

[GRAPHIC] [TIFF OMITTED] 81191.052

[GRAPHIC] [TIFF OMITTED] 81191.053

Responses by Dr. Dr. James Ulvestad
[GRAPHIC] [TIFF OMITTED] 81191.054

[GRAPHIC] [TIFF OMITTED] 81191.055

[GRAPHIC] [TIFF OMITTED] 81191.056

[GRAPHIC] [TIFF OMITTED] 81191.057

[GRAPHIC] [TIFF OMITTED] 81191.058

[GRAPHIC] [TIFF OMITTED] 81191.059

[GRAPHIC] [TIFF OMITTED] 81191.060

[GRAPHIC] [TIFF OMITTED] 81191.061

[GRAPHIC] [TIFF OMITTED] 81191.062

[GRAPHIC] [TIFF OMITTED] 81191.063

[GRAPHIC] [TIFF OMITTED] 81191.064

[GRAPHIC] [TIFF OMITTED] 81191.065

[GRAPHIC] [TIFF OMITTED] 81191.066

                              Appendix II

                              ----------                              


                   Additional Material for the Record




   NASA Exoplanet Missions Graphic submitted by Dr. John M. Grunsfeld

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
